<html>
<title> - CONFIRMATION HEARING ON THE NOMINATION OF EDUARDO AGUIRRE, JR. TO BE DIRECTOR, BUREAU OF CITIZENSHIP AND IMMIGRATION SERVICES, DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 108-195]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-195
 
 CONFIRMATION HEARING ON THE NOMINATION OF EDUARDO AGUIRRE, JR. TO BE 
DIRECTOR, BUREAU OF CITIZENSHIP AND IMMIGRATION SERVICES, DEPARTMENT OF 
                           HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 6, 2003

                               __________

                          Serial No. J-108-14

                               __________

         Printed for the use of the Committee on the Judiciary




                       U.S. GOVERNMENT PRINTING OFFICE
90-465                        WASHINGTON : 1998
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
             





                           C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Chambliss, Hon. Saxby, a U.S. Senator from the State of Georgia..     1
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     2
    prepared statement...........................................    44
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.     3
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah, 
  prepared statement.............................................    42
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     9
    prepared statement...........................................    49

                               PRESENTERS

Cornyn, Hon. John, a U.S. Senator from the State Texas presenting 
  Eduardo Aguirre, Jr., Nominee to be Director, Bureau of 
  Citizenship and Immigration Services, Department of Homeland 
  Security.......................................................     5
    prepared statement...........................................    40
Jackson Lee, Hon. Sheila, a Representative in Congress from the 
  State of Texas, presenting Eduardo Aguirre, Jr., Nominee to be 
  Director, Bureau of Citizenship and Immigration Services, 
  Department of Homeland Security................................     6

                        STATEMENT OF THE NOMINEE

Aguirre, Eduardo, Jr., Nominee to be Director, Bureau of 
  Citizenship and Immigration Services, Department of Homeland 
  Security.......................................................    11
    Questionnaire................................................    13

                         QUESTIONS AND ANSWERS

Responses of Eduardo Aguirre, Jr. to questions submitted by 
  Senator Kohl...................................................    33
Responses of Eduardo Aguirre, Jr. to questions submitted by 
  Senator Feingold...............................................    35


 NOMINATION OF EDUARDO AGUIRRE, JR., OF TEXAS, NOMINEE TO BE DIRECTOR, 
BUREAU OF CITIZENSHIP AND IMMIGRATION SERVICES, DEPARTMENT OF HOMELAND 
                                SECURITY

                              ----------                              


                          FRIDAY, JUNE 6, 2003

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:41 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Saxby 
Chambliss presiding.
    Present: Senators Chambliss, Grassley, Cornyn, Leahy, and 
Kennedy.

OPENING STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM 
                      THE STATE OF GEORGIA

    Senator Chambliss. The hearing will come to order.
    We are pleased to have Eduardo Aguirre before this 
Committee as the nominee to be Director of the Bureau of 
Citizenship and Immigration Services at the Department of 
Homeland Security. I would like to welcome his daughter, 
Tessie, who is with him this morning.
    Mr. Aguirre's nomination is significant because he brings 
extensive management experience to a brand-new Bureau. He has 
held top-level positions in the banking industry for over 30 
years and most recently served as Vice Chairman and Chief 
Operating Officer of the Export-Import Bank.
    Mr. Aguirre will bring much needed management skills and 
qualifications to the Bureau. We all know the problems of the 
old INS, some of which were institutional as a product of an 
agency with competing demands. For years, Members of Congress 
declared the INS was broken and must be reformed. Now that 
opportunity is at hand, and I am confident that Mr. Aguirre is 
up to the task.
    As a young immigrant from Cuba, Mr. Aguirre has experienced 
the American dream through hard work in both his business 
success and his community service. And he will surely work with 
Congress and the various agencies to make that dream a reality 
for others seeking opportunities in the United States. I 
commend the President for his nomination, and I look forward to 
Mr. Aguirre's statement and responses to our questions.
    At this time I will turn to my friend, the Senator from 
Massachusetts, Senator Kennedy.

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. Thank you very much, Mr. Chairman, and I 
want to express my appreciation to you and to the Chairman of 
the Committee for arranging the hearing today. You and I were 
both in attendance at the Rules Committee yesterday dealing 
with some extremely important matters relating to the 
procedures in the Senate, and I am personally appreciative of 
having this hearing this morning when we can do justice to our 
nominee and to the importance of this office.
    It is a privilege to participate in the nomination of 
Eduardo Aguirre to be the first Director of the new Bureau of 
Citizenship and Immigration Services. As you mentioned, he 
brings an impressive background to this position. He has served 
as the Acting Chair of the Export-Import Bank, where he 
produced an organization more oriented to customer service and 
positive results. In the private sector, at the Bank of 
America, he made customer and employee satisfaction his highest 
priority. And with respect to the Bureau of Citizenship and 
Immigration Service, he has said he intends to make integrity, 
respect, and ingenuity the core values of the Bureau.
    Mr. Aguirre is also sensitive to the plight of immigrants 
and refugees. He came to the United States at the age of 15, a 
Cuban refugee with no family, no money, and no ability to speak 
English. His plight was very similar to the plight of many of 
today's immigrants and refugees. With the help of charitable 
organizations--the same organizations that help today's new 
arrivals--he overcame many obstacles to become the inspiring 
success story he is today. His refugee roots will serve him 
well and the Nation well as Director of the Bureau of 
Citizenship and Immigration Services.
    Overseeing immigration affairs is a major challenge. More 
than 500 million citizens, permanent residents, lawful 
visitors, students, and temporary workers cross our borders 
each year. Hundreds of thousands of applications are processed 
for citizenship, permanent residence, asylum, and other 
matters.
    As the Director of the Bureau of Citizenship and 
Immigration Services, Mr. Aguirre will have a major role in 
influencing immigration policy, including long-needed 
improvements in the services of the Bureau. It is obvious that 
we can do more to serve citizens, our visitors, our immigrants, 
by reducing unacceptable backlogs and making the customer 
service functions more helpful and efficient.
    The Bureau will need a strong Director to lead this 
transformation and guide the Bureau's integration with the 
Department of Homeland Security. The most important 
responsibilities of the position are to see that the service 
and enforcement functions are well coordinated and that the 
service functions are not given short shrift. Without strong 
leadership and the insistence on close coordination, the 
officials in the various immigration bureaus of the Department 
of Homeland Security are likely to issue conflicting policies 
and legal interpretations and generate even more disarray.
    The Bureau of Citizenship and Immigration Services must be 
adequately funded to make this transformation possible. 
Reliance on application fees to fund the processing of 
immigration applications has not worked, as we know from the 
long backlogs and delays facing immigrants who apply for 
permanent residence or citizenship.
    We also need to make progress on other important areas of 
immigration reform. We must find a way to maintain security and 
still enable refugees to find safe haven in our country.
    We must return to the issue of immigration reform. Earlier 
this week, Secretary of State Powell said that we must ``move 
forward'' on immigration policies that provide legitimate ways 
for persons to enter the country and that legalize hard-working 
immigrants.
    The status quo is unacceptable. It must be replaced with 
sensible reforms that create a manageable and orderly system 
where legality is the prevailing rule. We need immigration 
policies that reflect economic realities, but also respect our 
heritage and history as a Nation of immigrants.
    Finally, we must act on the recent findings of the Office 
of the Inspector General and the ``significant problems'' he 
found in the way that the Justice Department treated September 
11 detainees. Although immigration detention is not the 
responsibility of the Bureau, many of the persons detained are 
eligible for immigration relief and must be allowed to consult 
with their families and attorneys.
    I look forward to today's hearing and to working closely 
with Mr. Aguirre to achieve these important goals. Immigration 
is an indispensable part of our Nation, and we must do all we 
can to see that our immigration laws are fair and consistent 
with the Nation's fundamental values.
    I thank the Chair.
    [The prepared statement of Senator Kennedy appears as a 
submission for the record.]
    Senator Chambliss. I now turn to the Chairman of the 
Finance Committee and a member of this Committee, Senator 
Grassley.

STATEMENT OF HON. CHARLES E. GRASSLEY, A U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Grassley. I will be with you just a short period of 
time because of a hearing I have on prescription drugs. But I 
do want to take the opportunity to congratulate Mr. Aguirre as 
well as expressing some concerns, as Senator Kennedy did, about 
the issues of immigration.
    Every member of this panel is concerned about the services 
that we provide new residents of our United States. We strive 
to welcome immigrants in a timely and efficient manner. We are 
frustrated, of course, by reports of backlogs and mistreatment. 
We have pressured the old Immigration and Naturalization 
Service for reforms, and we will continue to monitor the new 
Bureau's ability to serve newcomers.
    Today, I want to express my strong belief that superior 
attention to customer service is necessary despite the Bureau's 
mission and functions under a new Department. I would encourage 
the Department and the Bureau to bring enthusiasm and 
dedication to the duty of providing quality service to our 
country's newcomers. The Bureau must be acutely aware of the 
demands facing our Nation's newcomers. Such demands necessitate 
the highest standard of customer service and professionalism.
    First, I would commend the service for making individual 
case statuses available online and allowing the public another 
avenue to learn about their applications. I know that 
improvements to this electronic system will come, and I will 
continue to support new efforts to assist the Department's 
clients.
    Second, complaints about the Bureau's employees have been 
passed along to me that I find unacceptable. For example, some 
employees find it acceptable to threaten those who are subject 
to our confusing laws, and obviously new laws to new people 
coming to this country. I hope that the new administrator will 
appropriately investigate and address these issues and any 
others where the conduct of the new Bureau's employees is 
called into question.
    Before closing, I would like to mention that I have been 
working to obtain more service personnel in the eastern part of 
my State of Iowa. Last year, I wrote to Attorney General 
Ashcroft and this year I have written to the new person of 
responsibility, Secretary Ridge, to request that additional 
immigration employees be placed in the Quad Cities of the Iowa 
and Illinois area where they have seen such an increase in 
immigrants. I am glad that your Bureau has responded by 
announcing immigration service hours being held in Davenport, 
Iowa, on June 24th. However, this first step must not be the 
last.
    Mr. Aguirre, you have had experience in shaping 
organizations, leading hundreds of employees, and managing 
millions of dollars. I hope that your expertise will help the 
Bureau of Citizenship and Immigration Services to get off on 
the right foot, and I welcome you, as I am sure you welcome 
that challenge, and we obviously wish you all well in your new 
job, not only to you personally but to the service that you 
bring to our new immigrants to this country.
    Thank you very much.
    Senator Chambliss. Thank you, Senator, and you have been a 
busy man the last few weeks, and we appreciate all the great 
work you have been doing and all the positive legislation you 
have been shepherding through our great institution.
    Senator Grassley. You keep talking that way, I will stay 
awhile.
    [Laughter.]
    Senator Leahy. I think you have too many people waiting in 
the hall for you, Chuck.
    Senator Chambliss. We are now joined by the distinguished 
Ranking Member of the Senate Judiciary Committee, our friend 
from Vermont, Senator Leahy, for any comments he might have.
    Senator Leahy. Mr. Chairman, I will have a couple comments 
about the nominee, but I see both Senator Cornyn and 
Congresswoman Sheila Jackson Lee here, and I would be happy to 
let them go ahead. But then I would like to make a couple 
comments about the nominee.
    Senator Chambliss. All right. We will move to the first 
panel, which is two of our distinguished colleagues from the 
great State of Texas: my former House colleague, Sheila Jackson 
Lee, and my good friend and classmate, Senator Cornyn.
    Senator Cornyn, we look forward to hearing from you any 
comments you have about Mr. Aguirre.

 PRESENTATION OF EDUARDO AGUIRRE, JR., NOMINEE TO BE DIRECTOR, 
 BUREAU OF CITIZENSHIP AND IMMIGRATION SERVICES, DEPARTMENT OF 
HOMELAND SECURITY, BY HON. JOHN CORNYN, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Cornyn. Thank you, Mr. Chairman. It is good to be 
here today on this side of the table here in this Committee 
hearing, of which I am a member, a proud member, and I 
appreciate your calling this hearing today and providing me an 
opportunity to testify on behalf of a great American, a great 
Texan, and, I am pleased to say, a great friend.
    It is my pleasure to introduce to the Committee Mr. Eduardo 
Aguirre, Jr., nominated to serve as the first Director of the 
Bureau of Citizenship and Immigration Services in the new 
Department of Homeland Security.
    Mr. Aguirre understands deeply how important a role 
immigrants have played in our Nation's history. As a fellow 
Texan, I am proud of his contributions that he has made to the 
State of Texas and to this country, and that he will continue 
to make if confirmed by the Senate for this position, as he 
surely should be.
    As Senator Kennedy has already noted, at the early age of 
15, Eduardo Aguirre fled Cuba in search of a better life. His 
life story is a success story and a valuable reminder to all of 
us that immigrants epitomize the hard work, entrepreneurial 
spirit, and thirst for liberty that embodies the American 
dream.
    As you know, the Department of Homeland Security's Bureau 
of Citizenship and Immigration Services provides the services 
to immigrants that were once provided by the former INS. The 
BCIS has a daunting mission in front of it: to eliminate 
substantial backlogs, and to improve immigration services for 
all who come to this country in search of a better life. As 
Acting Director of BCIS since February, Mr. Aguirre is already 
aware of the daunting challenges faced by this new Bureau, and 
he has done an excellent job in leading and managing it.
    Mr. Aguirre has already enjoyed an impressive career in 
management, both in the private and public sectors, and, of 
course, management experience is precisely what is called for, 
especially at this particular agency and at this particular 
time.
    He comes to the Department of Homeland Security most 
recently from the Export-Import Bank of the United States, 
where he has served as Vice Chairman and Chief Operating 
Officer. He was confirmed to that post in December 2001 by the 
unanimous consent of the United States Senate.
    Mr. Aguirre served as the Bank's Acting Chairman until 
December 2002. In that capacity, he guided the Bank through its 
most recent 5-year Congressional reauthorization and shaped it 
into a more customer service and results-oriented organization.
    Before moving to Washington, Mr. Aguirre enjoyed a 24-year 
career with the Bank of America, including service as president 
of International Banking. He has also served as Chairman of the 
Board of Regents of the University of Houston System, where he 
brought clarity of purpose and direction to the four-university 
system and its approximately 50,000-student body.
    Mr. Aguirre is not only a leader in Government and 
business, but also a civic leader.
    He is the founding Chair of the Houston Livestock Show and 
Rodeo-Go Tejano Committee, further empowering Houston Hispanics 
with access to college scholarships. He has served on numerous 
professional and civic boards, including the Texas Children's 
Hospital, St. Joseph's Hospital, the Center for Excellence in 
Education, the Bankers Association for Finance and Trade, and 
the Houston chapters of the American Red Cross and the 
Salvation Army.
    Named ``one of the 100 most influential Hispanics in the 
Nation'' by Hispanic Business magazine, Mr. Aguirre has 
traveled extensively in Latin America, Europe, and Asia, 
promoting economic growth, international trade, and business 
opportunities. He has represented the United States in meetings 
with heads of state, cabinet ministers, and other high-ranking 
government officials and private sector executives in 
discussions related to trade financing.
    If confirmed, Mr. Aguirre will face important and 
challenging responsibilities. As Director of the BCIS, Mr. 
Aguirre will build upon his excellent record of leadership, 
management, and service on behalf of all of our Nation's 
immigrants and, indeed, on behalf of this entire Nation.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Cornyn appears as a 
submission for the record.]
    Senator Chambliss. Thank you very much for those great 
comments.
    Congresswoman Jackson Lee, we are pleased to have you with 
us and look forward to hearing from you.

 PRESENTATION OF EDUARDO AGUIRRE, JR., NOMINEE TO BE DIRECTOR, 
BUREAU OF CITIZENSHIP AND IMMIGRATION SERVICES, U.S. DEPARTMENT 
      OF HOMELAND SECURITY, BY HON. SHEILA JACKSON LEE, A 
       REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS

    Representative Jackson Lee. Thank you, Mr. Chairman. It is 
a pleasure to see you and be reminded of the work we did on the 
CDC, and all I can say is we are trying to continue that work 
for the Centers for Disease Control and continue to work on the 
issue of homeland security. In fact, as we speak, the House 
Select Committee on Homeland Security is meeting, of which I am 
a member, so I would ask the Committee's pardon after I 
hopefully share with you my thoughts and feelings about this 
great nominee, if you would allow my departure for that 
hearing.
    Senator Chambliss. Certainly.
    Representative Jackson Lee. I thank Senator Kennedy as well 
for his leadership in this Committee and certainly Ranking 
Member Leahy for his leadership on these very important 
matters. And, of course, I am very pleased to be able to not 
only speak of a great Texan and American, but might I say, a 
great Houstonian that we are also very proud of. And I stand 
here representing the constituency of the City of Houston that 
appreciates the leadership of Eduardo Aguirre, who has served 
us in our community.
    I believe the Committee will answer several questions this 
morning during this confirmation proceeding. The question will 
include what is an American and who can be an American, 
actually will be aspects of the job that Mr. Aguirre will be 
taking on. I think there could not be a better nominee to 
represent that question.
    I am proud to call him an American, a Houstonian, a Texan, 
and certainly a friend. And I come today to support his 
nomination and to encourage the Senate to confirm him as the 
Director of the Bureau of Citizenship and Immigration Services. 
It will not be an easy assignment. While the enforcement side 
of the old Immigration and Naturalization Service came under 
most of the scrutiny, the service and benefit side also has had 
its major problems. I am most familiar with Houston, which 
historically has been one of the most overburdened offices. For 
instance, immigrants who filed an application for permanent 
resident status would have to wait some 3 years before they 
would even begin to process the application. But I am confident 
that we have the right person, the right man for this 
challenge.
    I know that this gentleman, along with his family members, 
has always had a can-do attitude in our community. I have seen 
his work throughout the years, and now as he serves the 
President of the United States and the people of the United 
States, he brings to us that can-do attitude.
    I also believe that he understands the concept that this 
Nation was built on the hard work of many, including 
immigrants, those who seek access to legalization, and I think 
even after 9/11, he realizes that immigration does not equate 
to terrorism. I believe that because when Mr. Aguirre spoke at 
the University of Houston commencement ceremony in May of this 
year, he described himself as a little kid from Havana who 
ended up in the administration of the United States President. 
He told the graduates that America is a country where there are 
no barriers to what an individual can accomplish. He certainly 
represents that, and I agree completely.
    His experiences are illustrations of the opportunities for 
social equality and economic independence that attracts 
immigrants to this Nation. I know, however, that it is not easy 
to succeed even in this great country. It requires character, 
ability, and persistence to overcome the obstacles that 
immigrants face when they establish lives or seek to establish 
lives for themselves in the United States.
    Again, who is an American and who can be an American are 
questions that I believe Mr. Aguirre can answer very aptly.
    Mr. Aguirre comes to this position with the skills and 
experience that are needed to complete the reorganization of 
the service and benefit operations from the former Immigration 
and Naturalization Service. During his tenure as head of the 
Export-Import Bank, he guided the Bank through its most recent 
5-year Congressional reauthorization. In fact, he got a 
successful vote in the House on the reauthorization of the 
Export-Import Bank, even with those who desire to express their 
opposition to that particular entity.
    I am particularly pleased to relate to you that he shaped 
the Bank in a more customer service and results-oriented 
organization. The Aguirre transformation of the Bank included 
the implementation of streamlined customer procedures, the 
implementation of quality assurance standards, oversight, and 
initiatives designed to facilitate customer interaction--the 
very skills that will be needed for this new Bureau to focus on 
immigration services, but also to encourage those who are 
seeking legalization, doing the right thing, attempting to be 
documented, to have the process effectively utilized.
    I look forward to seeing him apply his experience and 
expertise to the customer relations area, to the management of 
the Bureau of Citizenship and Immigration Services. His 
intentions in this regard were expressed in a recent newspaper 
article which conveys a message from Mr. Aguirre to the dozens 
of immigrants who line up outside of the old Immigration and 
Naturalization Service office in Houston at 5:00 a.m. every 
morning and then wait hours for the chance to spend a few 
minutes talking to a Government officer. His message is he is 
on your side. He is very conscious of the fact that the lines 
have to be reduced. He is also good at listening to the 
immigrants who waited years to get their applications processed 
and the thousands more who have written letters to the old INS 
that were never answered.
    The same focus on customer service can be seen in the 
record of his employment prior to joining the Export-Import 
Bank. As you have heard, he served as president of 
International Private Banking for the Bank of America, and 
during his 24-year career with the Bank of America, he led the 
integration of new teams and corporate cultures into a unified 
structure responsive to customers, shareholders, and the 
community at large.
    In addition to running a highly profitable unit of this 
50,000-employee world-class bank, his team was consistently 
ranked in the areas of customer and employee satisfaction, and 
I expect him to do the same here.
    We have served together on the State Bar of Texas where he 
was the first non-attorney. That is a great credit to him. We 
all know the bias of attorneys, but he was a breath of fresh 
aid amongst us in serving the Texas State Bar.
    As I see Judge Eric Endel here in the audience, I know that 
he can attest to the importance of civilian work, working with 
attorneys and making sure that we follow our rules of ethics 
and, of course, serve our customers, our clients.
    He was a wonderful leader of the Texas Bar Foundation, a 
nonprofit agency, and under his leadership, thankfully we 
raised $500,000. He has been named three times by Hispanic 
Business magazine one of the 100 most influential Hispanics in 
the United States. He has traveled extensively. He knows the 
importance of relationships internationally. And I think he 
will be a good friend to not only the Nation but the world in 
working to show the world of our concern about those who 
immigrate to this Nation.
    I work with him on the Houston Livestock Show, and if any 
of you are aware of what goes on in February every year in 
Houston, Texas, everyone is a cowboy. But what the Houston 
Livestock Show stands for is raising scholarship dollars for 
young people. And it was the leadership of Mr. Aguirre on the 
Go Tejano Committee that inspired me to help found the Go Black 
Texan Committee that helped to raise scholarship funds for 
inner-city youngsters. And we have worked together.
    He has done great work for the Texas Children's Hospital, 
St. Joseph's, and many other organizations. But, frankly, I 
believe this gentleman comes to you with that can-do attitude 
and a love and understanding of the values of America that we 
all can be proud of. We all represent one great Nation loving 
democracy and sharing, and so it is with great pleasure that I 
hope that this Committee will certainly confirm initially his 
seeking the position of the Director of this Bureau and that he 
will move quickly to the United States Senate.
    I thank you for giving me the opportunity to provide this 
insight.
    Senator Chambliss. Well, we appreciate very much and I know 
Mr. Aguirre appreciates very much you being here showing a 
bipartisan spirit in support of his nomination. Thanks for all 
you do with our colleagues on the House side, and we appreciate 
your leadership. Again, thanks for being here and thanks for 
your comments.
    Representative Jackson Lee. Thank you, Senator.
    Senator Chambliss. Before we ask Mr. Aguirre to come up, I 
will turn to my friend from Vermont, the ranking member, 
Senator Leahy.

STATEMENT OF HON. PATRICK LEAHY, A U.S. SENATOR FROM THE STATE 
                           OF VERMONT

    Senator Leahy. Thank you, Mr. Chairman.
    I might to say to the nominee, you ought to just sit there. 
You are doing okay so far.
    [Laughter.]
    Senator Leahy. Here in the Judiciary Committee, it isn't 
always this way, so enjoy it, luxuriate in it. The sun is 
shining, and I think you have got all of it in here. You are 
not doing too bad so far. Even the 101st Senator under the 
table here, Senator Kennedy's dog Splash, is wagging his tail 
every time your name is mentioned. And he doesn't always do 
that.
    I am glad that we are having this nomination. I am glad 
also, to be serious for a moment, that the nomination was 
referred to the Judiciary Committee which continues to have 
jurisdiction over immigration legislation and oversight. We had 
not considered the nomination of Asa Hutchinson as Under 
Secretary, but it is fitting that Mr. Hutchinson has testified 
before the Committee since his confirmation and has made 
himself available to us.
    With this hearing on immigration, I suspect we will have 
more as the year goes on. I think that is an important thing to 
do. A number of us on both sides of the aisle called for a 
hearing on the report released on Monday by the Justice 
Department's Office of the Inspector General concerning the 
treatment of those aliens who were detained as part of the 
investigation into the September 11th attacks.
    I think it would be important that we hold that hearing as 
promptly as possible because the Inspector General report shows 
the severe consequences that can be faced by those immigrants 
who fail to maintain their lawful status. Of course, the 
responsibility to remain here legally falls upon immigrants, 
but there are occasions when immigrants live up to that 
responsibility, do all the paperwork, but are sometimes failed 
by errors and backlogs on the Government's part. And we want to 
prevent that because I think that you especially as an 
immigrant know the same thing that my grandparents knew: that 
this is a wonderful country and it beckons us. But also when 
immigrants come to our shores, we also want to show them the 
best face of America, and not make them think, whether 
intentionally or otherwise, that we don't want them here.
    I wouldn't be here if my stonecutter grandfather hadn't 
come here and earned enough money in Vermont to then send for 
his wife and children. And I have always remembered that. I 
still go back to Italy where all my family is from to meet with 
them.
    So I hope that you especially will use your position to 
battle the perception in many of the immigrant communities that 
the war on terrorism has become a war on immigrants.
    Now, we are justified to go after terrorists, but we 
shouldn't make immigrants think that we are going after them as 
a class. We are going after terrorists, not after immigrants.
    You have a distinguished career in business. I have talked 
with my friends at the Export-Import Bank. They have said 
wonderful things about you, and as the Chairman said, we have 
two distinguished Members of Congress who have come here and 
spoken for you.
    You are going to have a demanding portfolio. You have 
gotten letters from Members of Congress, including myself, with 
concerns about immigration policy. Yesterday we read in the New 
York Times how backlogs have stranded 20,000 refugees in what 
are described as ``desolate camps in Africa, Asia, and the 
Middle East.'' I have been in some of those camps, and they are 
awful. We can do a better job.
    As Director of BCIS, you are going to supervise many 
constituents of mine at the Service Center in St. Albans, 
Vermont. They are excellent employees, and I want to commend 
you for having already made a trip up there in your acting 
capacity. I can tell you from what I have heard from the men 
and women there, they appreciated that. They appreciated the 
fact that you actually cared because, boy, they are working 
hard. You know, they are dedicated Americans, and they want 
this Service Center to work.
    So keep them in the loop, via me or--I mean, I would be 
happy to bring you up there anytime. I would be proud to bring 
you up there anytime--again, assuming you are going to be 
confirmed, which, of course, you will.
    And I think what you are probably going to hear as you have 
gone around, many of the former INS employees have been left in 
a state of flux as each DHS branch makes its own reorganization 
plan. As you reorganize BCIS, I urge you to make assessment 
unrestricted cohort use as possible of these Vermonters with 
immigration backgrounds. They have a great deal of expertise 
and can be available to you, and I would hope you would 
consider making Vermont a regional center for your agency. I am 
not asking for a commitment, of course. But I hope you would 
consider it because these people have so many years of 
experience that you couldn't replicate anywhere else.
    On the national level, it was a priority for many of us 
that immigration services not be overlooked at the Department 
of Homeland Security. As I said, immigration is so important to 
us, and immigration has to be handled in a fair and orderly 
way. So I look forward to hearing your views on that, about the 
backlogs in our immigration system. We want to talk about that.
    The President has pledged to reduce the average backlog for 
immigration petitions to 6 months by 2006. I certainly agree 
with that and want to hear your plans on that.
    I am heading off to Vermont today, but I delayed my 
departure because I wanted to be here to welcome you.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Senator Chambliss. Thank you, sir.
    Mr. Aguirre, we will ask that you come forward to be sworn. 
I will ask that you stand and raise your right hand. Do you 
solemnly swear the testimony you are about to give before this 
Committee shall be the truth, the whole truth, and nothing but 
the truth, so help you God?
    Mr. Aguirre. I do.
    Senator Chambliss. For the record, will you state your 
name, please?
    Mr. Aguirre. Eduardo Aguirre, Jr.
    Senator Chambliss. You are going to need to press that 
button there.
    Mr. Aguirre. Senator, my name is still Eduardo Aguirre, Jr.
    [Laughter.]
    Senator Chambliss. Well, we are pleased to have you here 
this morning. And Senator Leahy is right; it is not always this 
free-flowing and complementary in this room, and that says a 
lot about you. And we certainly appreciate the great work you 
have done for our country to this point, and we look forward to 
hearing from you this morning, and we will accept any opening 
statement, and if you would like to tell us about any family or 
friends you have with us, it is always our pleasure to hear 
about that, too.

  STATEMENT OF EDUARDO AGUIRRE, JR., NOMINEE TO BE DIRECTOR, 
 BUREAU OF CITIZENSHIP AND IMMIGRATION SERVICES, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Aguirre. Thank you, Mr. Chairman and Senators. I am 
very pleased to come before you today as you consider my 
nomination to be the first-ever Director of the Bureau of 
Citizenship and Immigration Services in the newly created 
Department of Homeland Security. At the onset, I would like to 
thank my wife of 35 years, Maria Teresa Aguirre, for her 
continued support in my quest to serve my country through 
public life. Representing our family and with me today is my 
daughter, Tessie Aguirre, who is a senior at Texas A&M 
University and is studying in Washington, D.C., this summer, 
and my daughter is right behind me.
    Should the Senate act favorably on my nomination, this 
would mark my second Senate-confirmed Presidential appointment 
service to my adopted country. Almost 42 years ago, I came to 
this land of freedom and opportunity as a 15-year-old Cuban 
refugee without my family or money or working knowledge of the 
English language. Along the way I was sheltered and taught by 
Catholic Charities, cared for by the United Way, and helped by 
many, many, many others. Later, a very affordable U.S. 
Government student loan program allowed me to attend college 
and eventually earn a degree from Louisiana State University. I 
have overcome real and imagined obstacles on my journey to 
realize my version of the American dream. And I am grateful 
beyond words. I am extremely proud and humbled to have been 
selected by President George W. Bush to serve the United States 
in his administration.
    The Bureau of Citizenship and Immigration Services is 
responsible for providing the right immigration benefits, in 
the right amount of time, to the right applicants; and to 
prevent the wrong ones from accessing our benefits. The United 
States always has, and continues to be, a Nation of immigrants. 
On a personal level, I share President Bush's vision of 
``welcoming immigrants with open arms...not endless lines.'' If 
confirmed, I look forward to working with Secretary Ridge, 
Deputy Secretary England, and the rest of the Homeland Security 
leadership and staff, in addition to others in President Bush's 
administration, to advance our country's immigration agenda, 
including a serious focus for the scrutiny and security 
responsibilities within our scope. Also, as demonstrated in my 
position as Vice Chairman and Chief Operating Officer of the 
Export-Import Bank of the United States, I welcome the 
opportunity to work with the Senate and the House of 
Representatives.
    I am confident that one and half years in a leadership role 
at the Ex-Im Bank, 34 years in commercial banking, and a number 
of hands-on civic leadership roles have prepared me to accept 
this considerable challenge. Beyond my inherent sensitivity to 
immigrant issues, I hope to bring to the job my proven 
management and leadership skills, my customer service 
background, my broad risk analysis experience, a respectful awe 
for the trust placed in me, an open mind, and some measure of 
common sense. These skills should be particularly important to 
the Bureau of Citizenship and Immigration Services as we face 
the unique challenges of the 21st century. My vision is to lead 
a world-class Bureau that will excel in customer service and 
effective risk management. During my tenure, integrity, 
respect, and ingenuity will be our core values.
    In closing, I want to acknowledge my family as the bedrock 
of my value system. We hard-working, God-fearing people who 
recognize and treasure our immigrant roots as we strive to give 
back some of the many blessings that have come our way.
    Mr. Chairman, Senators, I respectfully ask for your 
favorable consideration of my nomination and stand ready to 
respond to your questions as you may have them.
    Thank you very much for your attention.
    [The biographical information follows:]
    [GRAPHIC] [TIFF OMITTED] 90465.001
    
    [GRAPHIC] [TIFF OMITTED] 90465.002
    
    [GRAPHIC] [TIFF OMITTED] 90465.003
    
    [GRAPHIC] [TIFF OMITTED] 90465.004
    
    [GRAPHIC] [TIFF OMITTED] 90465.005
    
    [GRAPHIC] [TIFF OMITTED] 90465.006
    
    [GRAPHIC] [TIFF OMITTED] 90465.007
    
    [GRAPHIC] [TIFF OMITTED] 90465.008
    
    [GRAPHIC] [TIFF OMITTED] 90465.009
    
    [GRAPHIC] [TIFF OMITTED] 90465.010
    
    Senator Chambliss. Well, thank you very much, and you sure 
bring a great story and a great background, personally as well 
as professionally, to this position, and we appreciate your 
willingness to serve in a public capacity.
    I have been to Tigers Stadium on Saturday night, and you 
all are not always very kind to my Bulldogs down there. But I 
promise you we are not going to hold that against you this 
morning.
    Mr. Aguirre. Well, thank you, Senator. The bipartisanship 
includes our schools.
    Senator Chambliss. Let me start off with a question 
regarding our visa system. One problem that has certainly been 
publicized following September 11, but all of us as Members of 
Congress knew that this problem existed well in advance of 
that, is the way we track individuals in this country once a 
lawful visa has been issued to them, particularly when those 
visas expire, whether it is a student visa or just a normal 
visa for somebody seeking to come in the country for a 
particular valid reason.
    How do you envision that you are going to be able to 
improve the system of tracking these individuals who are here 
legally? And how are we going to make sure that when their visa 
expires that they do what is correct, either extend it or go 
back to where they came from?
    Mr. Aguirre. Thank you, Senator Chambliss. The issue of 
people who visit our country can be broadly described as 
immigrants and non-immigrants, and perhaps you're referring to 
the non-immigrant capacity of many, many of the people that 
come to this country with either a visitor's visa, a tourist's 
visa, if you will, or student visas, which comprises really the 
majority of the 500 million visitors that we receive in this 
country.
    The other side of the equation is the immigrant population 
which comes here either on a permanent or semi-permanent 
capacity.
    The reason I make that distinction is because our Bureau 
actually makes that distinction. Our responsibility in the 
Bureau of Citizenship and Immigration Services is to deal with 
the immigrant population, and the other parts of our Government 
have to deal with the non-immigrant population. And I just want 
to make sure I'm responsive to your question.
    Many of the non-immigrants that come to this country are 
channeled through or handled by either our State Department or 
the Bureau of Transportation--the Border and Transportation 
Security that Under Secretary Asa Hutchinson handles. Below 
him, of course, we have the Bureau of Customs and Immigration, 
BTPS, I'm not sure, Border Protection, as well as immigration 
enforcement. And they are more the ones that are going to be 
tracking the immigrants that perhaps you're referring to.
    We, of course, will do our part to cooperate and 
communicate with them and make sure that we're adding our value 
to the immigrant community that would be mostly those who have 
either permanent residency or asylum status or some of the work 
permits that also we handle.
    Senator Chambliss. Is there going to be interfacing between 
your department and those departments, particularly with 
respect to computerized information that might be available on 
these individuals?
    Mr. Aguirre. Yes, sir. We will coordinate with them to the 
extent that it's practical and necessary. It's, I think, proper 
to note that post-9/11 many strides have been made to make 
different computer databases to interface with each other and 
communicate with each other. And we have not reached the end of 
the line. I think we have a long ways to go to improve our 
background checks and things of that nature.
    On our side, sir, as we consider the extension of benefits 
to those who apply for us, we work with a number of databases 
to do the background check to ensure that we're dealing with 
the individual as they should and to check on their background 
check to make sure that there's no security risk there. So we 
do interface with other parts of the Government.
    Senator Chambliss. There is some backlog of about 5 million 
cases, I believe, that has built up over the years at the 
former INS. The President said he wants to reduce that time lag 
down to 6 months. Can you tell us sort of where we are with 
respect to a reduction of that backlog?
    Mr. Aguirre. Yes, sir. I can tell you that I am as dismayed 
as I'm sure our President is and most everyone should be on the 
backlog that we are experiencing right now. The President's 
goal, as stated, brings us to a 6-month turnaround time 
sometime in 2006. I am confident that we will reach and 
hopefully improve on that particular goal.
    We were making great strides a couple of years ago or so, 
and then 9/11 came about. And I would say that instead of 
having a steady growth in terms of completing the cases, we 
have had a dip because we have to--we, meaning the INS, had to 
rechannel some of the resources that they were using towards 
the backlog to deal with the issue of background checks and 
other things that we were doing.
    I can tell you that we have created a group that will 
return to me within the next 90 days with a recommendation with 
specific timelines and action items that will establish a more 
orderly decision on the backlog. And that is definitely one of 
the three priorities that I have in the big overall sense.
    Senator Chambliss. Okay. Senator Kennedy?
    Senator Kennedy. Thank you very much, Mr. Chairman.
    As you know, you have to depend, particularly with regards 
to those that are coming into the country and those we have to 
follow in this country because of potential threats to the 
Nation, on the CIA sharing the information on that watch list, 
and the FBI. And we are in the process of trying, with our 
border security legislation, to coordinate with the INS. I 
believe your computers are supposed to be up in 2004. Theirs 
come earlier. But I would be very hopeful that you would 
monitor that and watch it very carefully because that will have 
an enormous impact in your ability to track and trace and 
follow these. And I would hope that you would let us know on 
the Committee any areas where you do need help and assistance 
as this moves along. I am sure the Department of Homeland 
Security wants it to be done well and done right; the President 
does. We want to give you all the help and support. That is 
extraordinarily important.
    In the areas of the backlog, I am glad that the Chairman 
mentioned it because, as you mentioned, you have 500 million 
cases and naturalization applications numbering over 650,000. 
What happened, of course, as you are familiar with, is that 
some of the immigrants detained and placed in removal 
proceedings during the NSEERS registration program had pending 
benefit applications and would have actually--had their 
applications processed--had regularized status here. Because 
they weren't able to do that, a lot of them were both detained 
and some were deported.
    I would hope that as you shorten that time frame, you would 
be sensitive to what the penalties would be to some of these 
people that are trying to play by the rules, play by the game, 
so that while you are trying to catch up so that they are not 
unfairly penalized. Because that has happened in the past 
through no fault of their own. We don't want that to happen to 
them. As you are getting a handle, we want to try and make sure 
that you get that job done. But if you could take a look at 
that to make sure that they are not unfairly penalized during 
that process, that would be important.
    And I hope during the period of time as well, if you need 
additional kinds of resources--we know you are committed to 
whatever the budget says--we can ask you questions about what 
you would do if you had additional resources in terms of 
speeding up the applications, and we can make some independent 
judgments on this. And the Immigration Service has never been 
one that has been overly funded, quite frankly, over a period 
of time on this.
    One of the matters I just might mention in the budget and 
resources, when they had the NSEERS program, they took a lot of 
staff from working on naturalization and other immigration 
applications, and they were diverted to enforcement functions. 
So not only do the diversions of the staff and resources result 
in delays in applications but also confusion. Personnel is 
being shifted.
    Also, we are hopeful that you are going to get a recovery 
of resources from the Department so that you are not taking a 
whack both ways, extending in terms of not being able to move 
ahead on naturalization and not being reimbursed for the 
personnel. I don't know how that works, but I imagine that you 
might just comment about whether you intend to try and gain 
that reimbursement. Do you have a plan to try and do that? Are 
you going to talk to those in the Department to try to get 
reimbursement for funding in that area?
    Mr. Aguirre. Yes, Senator. If I may start at the last and 
work my way up, we have--we are towards the end of our 
negotiations with basically three parties: the Bureau of 
Immigration and Customs Enforcement, which was the one that 
mostly drew on our resources for the NSEERS program, and the 
OMB folks, and I believe we will reach a fair and equitable 
assessment of the monetary exchange that needs to take place. I 
have no reason to doubt that we are going to get that done in 
an orderly fashion.
    Of course, this has to do with an appropriation that has 
yet to be completed in the Congress, so we are actually dealing 
with dollars that are hopefully coming our way but not there 
yet.
    I thank you for your offer of assistance in the resources 
and accept it gladly. We will be happy to share that with you.
    It is premature for me to determine whether or not we are 
where we need to be. I feel that our budget of almost 
approximately $1.8 billion seems to be just about right at this 
particular time, but we are working on our 2005 fiscal year 
budget, and we will be including there some things that, in 
fact, are not there today which I know are of interest to you, 
the Refugee Corps and things of that nature. And we'll see when 
the dollars are added up that we would fit well within the 
Homeland Security structure and then, of course, count on the 
President to feel comfortable with it as well.
    In terms of the backlog, I mean, clearly, it is one of our 
high priorities, and we will get to work with them and are 
working on them right away.
    And, lastly, in terms of our coordination with CIA and 
actually the FBI, we are working with them. We do a number of 
background checks through them depending on the level of 
benefit applied to. But I must tell you that really the future 
in terms of resources and where we need to go is biometrics 
because right now when you're using names and other types of 
data to identify individuals, it is faulty, at best. And we 
will have to work our way into the future of technology so that 
biometrics becomes more the standard rather than the exception.
    Senator Kennedy. Well, I am glad you mentioned that. I 
think in years past, when we were looking at how you are going 
to deal with the falsification of documents, it basically comes 
down to the birth certificate. If people can falsify the birth 
certificate, it is all over. There is no way in the world that 
you are going to be able to get a handle on it. And the only 
way to try to do it is to try to have a tamper-proof birth 
certificate. This is something Senator Simpson understood very 
well, and for a while he tried to do it. But the idea that the 
Federal Government was going to require tamper-proof birth 
certificates in every community, every church, every synagogue, 
is completely unrealistic in terms of this country at this 
time. It just isn't going to go. He made a very bold attempt at 
trying to do it, but once you get beyond that, it is extremely 
difficult to ever get tamper-proof. And now we have got new 
technology, biometrics, which really gives us a new avenue to 
try and sort of deal with these areas. That is enormously 
important.
    Just a couple of other areas. I want to mention what you 
already understand, and that is, immigration involves both the 
enforcement and adjudicatory components. That is going to be 
enormously important. And the integration with the new 
Department and coordination among the three Bureaus are, I 
think, two of the biggest challenges that you have. I don't 
know if there is anything that you want to tell us about how 
that is proceeding and give us any sort of reaction there. And 
then I just have, Mr. Chairman, one other question.
    Mr. Aguirre. Yes, Senator, I think the issue of 
coordination begins at the top, and I can tell you 
unequivocally that Secretary Ridge is ensuring that all of us 
in Homeland Security, in fact, are coordinating and cooperating 
with each other, but, most specifically, I can point towards 
Asa Hutchinson and I, who are peers reporting to Deputy 
Secretary England, as talking frequently and very specifically 
and congenially in terms of making sure that we are working 
with each other.
    Beyond that, two of his direct reports, Mike Garcia and Rob 
Bonner, are individuals with whom our Bureau interfaces with on 
a frequent if not daily basis. And my communication with them 
is also frequent. And I have yet to discover an opportunity 
where we have not come to some agreement, even when we're 
dealing with issues that could be difficult.
    So at the leadership level, I can tell you that we are 
going to work together, but, more importantly, we have shared 
some of the resources. At our Bureau we have identified an 
individual that will--that is actually a liaison with BICE. Asa 
Hutchinson and I actually yesterday were meeting on this, and 
we are actually going to identify a liaison as well for his 
super structure. In fact, our legal counsel, the legal counsel 
for BICE and for my Bureau, at this particular time wears both 
hats. So we are sharing some resources. We're making sure that 
we're coordinating with each other and nothing falls through 
the cracks as we try to disengage the old INS into the new 
Bureau of--our Bureau and the other Bureaus as well.
    I hope that satisfies your question.
    Senator Kennedy. We again want to help you in every way 
that we can.
    Just last two items briefly. On refugees and asylees, you 
know, the President had the figure of 70,000. A year ago--we 
only let 27,000 in. A little over a year ago, we had a 
conference with Secretary Powell. I think all of us understand 
the complexities and the difficulties immediately after 9/11. 
And he was saying that we ought to look at the 2-year period, 
thinking of last year's 70,000, what we might be expecting this 
year and thinking of it policy-wise.
    But I am most interested in how you are going to work 
through that. It is ambitious, clearly, but this is the 
number--we have got the greatest number of refugees now--that 
has created enormous kinds of needs. And the ceiling has been 
established and has been approved by Congress. I am wondering 
whether you intend to give that a priority as well.
    Mr. Aguirre. Thank you, Senator. In fact, refugees is one 
of our priorities, as stated by the items that we need to 
discharge. As a former refugee myself, I have a special 
sensitivity to this issue, and I have actually taken quite a 
bit of interest in it.
    I feel very proud to say that our Bureau and our Nation 
will continue to work the issues of refugees to make sure that 
we maintain the doors open to those who seek to come here.
    Clearly, a number of different factors have come into play 
here in terms of our refugee population today. Some 
geopolitical changes such as Eastern Europe and the old Soviet 
Union are no longer bringing refugees to our shores in the 
numbers that used to come. Our most two recent wars have 
changed the dynamics, and certainly 9/11 has changed the 
dynamics in terms of the background checks that we have to do 
of refugees, which, as you very well know, are precisely the 
population where a background check is particularly difficult 
to do.
    We are working with the State Department, and we're working 
with other organizations, whether multinational organizations 
or NGOs, nongovernmental organizations, to see what we can do 
to alleviate the problem. I feel that this is a year which 
hopefully will be an anomaly over the long-term period of time, 
and hopefully the number of refugees will increase and will 
bump up closer to the ceiling than they would be in this 
particular fiscal year.
    Senator Kennedy. Thank you. Just finally, in the 
International Religious--I will send you a note on this because 
this is technical--Freedom Act of 1998 required the GAO to 
study the effect of expedited removal on individuals, and they 
did that. They performed that. But it also authorized the U.S. 
Commission on International Religious Freedom to designate 
experts to study the same issue. That had not been done. The 
act provided the Commission with access to the expedited 
removal process and detention facilities as well as relative 
documents.
    I think it would be enormously useful, particularly in the 
wake of what the IG has had over at the Justice Department, to 
ensure that that study, which was authorized and recommended, 
is carried through. If you would look into that for me and let 
me know.
    That is a technical question, so let me write you a note on 
it, and you can give me an answer, unless you want to say 
something about that now.
    Mr. Aguirre. All I can say is I look forward to your note, 
Senator.
    Senator Kennedy. Okay. Very good.
    Thank you very much, Mr. Chairman.
    Senator Chambliss. Senator Leahy?
    Senator Leahy. Thank you, Mr. Chairman.
    Incidentally, I am glad you have your family here and you 
introduced them. Someday when you look in the family archives 
and see the transcript of this that you will get, it will note 
the fact that they were there, and I know you--like I am with 
my family, you must be very, very proud of them.
    Mr. Aguirre. Indeed, Senator. Thank you.
    Senator Leahy. One of the things I look forward to the most 
this weekend is being with my two grandchildren, who totally 
wear me out, and I will have a great time doing it.
    I talked a little bit before in my opening statement about 
the situation in Vermont, and as I said, I really appreciate 
and compliment you for taking the time to check that out. There 
are more than 2,000 Vermonters who work for the INS, either as 
permanent or contract employees. So the reorganization plans of 
the Bureau of Immigration and Customs Enforcement or the Bureau 
of Customs and Border Protection are having a substantial 
effect on our State, and, of course, everybody is interested 
about it.
    What organizational changes basically do you plan for BCIS?
    Mr. Aguirre. Thank you, Senator, for that. I'd just like to 
preface my comments by saying that--thank you for recognizing 
that I did go to Vermont. I went there not only because I 
wanted to visit that particular corner of our business, but 
because Vermont has been and will continue to be an important 
part of our structure. As you well know, it is the site in 
Burlington where we have the headquarters for our Eastern 
Region, and I wanted to get a sense of not only the leadership, 
but particularly the workforce that we have there.
    And I commend you, Senator, for the outstanding 
professionalism that I found there. I met with essentially 
every employee that I could, either in a one-on-one setting or 
in a town hall meeting setting, and I was very impressed with 
their commitment. I was very impressed with their 
professionalism and their determination to work in our Bureau.
    As such, I can say that it is my intention to maintain 
Vermont as an integral part of our structure. We have not 
finished determining how our regions are going to be 
structured, and I know that is inherent perhaps in your 
question, only because we want to make sure that we will blend 
well with the region structure that the Department of Homeland 
Security will roll out. And when that--we are part of that 
discussion, and we're making sure--and, in fact, Secretary 
Ridge is making sure that our concerns are considered in the 
overall region structure.
    Vermont will be an important part in the overall structure 
going forward, simply because we've got the right people there, 
they're doing the right job, and we want to leverage them more 
rather than less.
    Senator Leahy. Thank you. After you get fully settled in, 
perhaps you and I could spend a little time together going over 
some of the direction. I appreciate very much what you said, 
and I will also pass on your words to them about their 
commitment. I know that will mean a lot. And I think it's 
important that you continue and your office continue to talk to 
the people not only in Vermont but in other places, because you 
can imagine the basic concern that goes on. Here's a major 
enormous shift in the organization of our Government, and you 
have dedicated professionals, and they will keep on doing their 
job, but they also want to know whether they are going to keep 
on paying their mortgage, too. So I appreciate that.
    I would also like you to look at the EB-5 Immigrant 
Investor Visa program. That is the one that promotes domestic 
job creation by encouraging foreign investment in the U.S. It 
has been around a little over 10 years now, and in the past, 
there seems to be some friction with INS on that. I think last 
year only 148 visas were granted, even though we see the 
jobless rate going up in the United States, and 148 visas were 
granted to those who wanted to create jobs here.
    You have had extensive business experience yourself, so I 
would hope you would work with us to make sure that program is 
working the way Congress intended. We want to create jobs here 
in the United States, and I know you do, too.
    Mr. Aguirre. Well, yes, Senator. Thank you. I have not 
really looked deeply into the numbers issue of the EB-5, but I 
have analyzed the alphabet soup of the many programs that we 
have, and there are so many of them that all really are geared 
towards bringing the right people to our country to participate 
in the creation of jobs and improvement of our economy. And, of 
course, I look forward to working with you on that to making 
sure that we're maintaining that program strong.
    Just a quick comment, sir. You mentioned the fact that you 
hope I would visit with other parts of the country. I am proud 
to share with you that in the first 6 weeks of my tenure, I 
have traveled around the country and met with a third of our 
workforce, approximately 5,000 of our employees, just to take 
their pulse, to get a sense of their morale and their 
commitment, and as the leader of the team, to make my own 
assessment of whether or not the team was up to the task.
    I am pleased to tell you that we are. We have got a great 
group of professionals corner to corner. As much as I know 
you're proud of your Vermonters, I am just as proud of all the 
other employees we have throughout the Nation, and we'll do the 
job right, I promise you that.
    Senator Leahy. I am extremely proud of all of them, and I 
have got to tell you, taking that kind of hands-on approach has 
to be the best thing you could possibly do right now. And I 
praise you for doing that.
    On the EB-5 program, we passed the Department of Justice 
authorization act last year, and in that it said the 
regulations were to be implemented on the changes within 120 
days of enactment. Some others were supposed to take effect 
upon enactment. They have not been implemented, and that is 
something I would hope that you might take a look at. That was 
before your time, but if you could, because--
    Mr. Aguirre. Yes, sir.
    Senator Leahy. There is a lot of bipartisan interest in 
that program.
    Mr. Aguirre. Sure.
    Senator Leahy. Now, one thing, I mentioned this concern 
that the war on terrorism has been perceived by many as being a 
war on immigrants. I know you don't feel that it is a war on 
immigrants any more than I do.
    Mr. Aguirre. No, sir.
    Senator Leahy. But with your own background--and I 
certainly feel with my family background--I would hope that you 
would do everything possible to address that perception. I 
think it is necessary. Our Nation, we can use all the 
statements that have been made for hundreds of years, ``the 
melting pot'' and everything else, but it is true. And our 
Nation is strengthened by the people who come from all these 
other countries. We offer a great deal. We offer the highest 
perceptions and realities of freedom--freedom of speech, 
freedom of religion. All these other basic rights in our Bill 
of Rights are things that are praised and honored throughout 
the world.
    You know yourself that in the number of countries that do 
not have our freedoms, people look to the United States and say 
that is a shining example. And I don't want people in other 
countries to think somehow America is different. We have been 
attacked before. We have gone through world wars, and we have 
gone through civil wars, and we have always come out stronger 
for it.
    So make sure that torch held high in the New York Harbor is 
still what it stands for.
    Mr. Aguirre. Yes, Senator. I would like to just share with 
you, I feel very comfortable with the leadership that I look to 
in terms of President Bush and Senator Ridge--or, excuse me, 
Secretary Ridge. We have very much the same core values when it 
comes to immigrants, and that is that we need to welcome them. 
This is a Nation of immigrants. With the possible exception of 
Native Americans, if we all scratch our DNA, somehow or another 
immigrants are the core of our being. And that is what makes 
America great.
    And so it will be my high honor to maintain that standard 
and that tradition that we have. And when I first met with 
Secretary Ridge, then-Governor Ridge, I didn't know him, and I 
told him that the only way I could discharge my 
responsibilities would be with respect and dignity, respect and 
dignity not only for the immigrants that come before us, but 
also my fellow employees. And, of course, he embraced that as 
very much his own value.
    So I can't speak for how the rest of the world looks at us 
through their own historic glasses at times, but we will do our 
job to make sure that we can sleep well at night.
    Senator Leahy. Well, thank you, and there is nothing more I 
could ask of you, and I want you to know that you will have my 
support, you will have my vote.
    Mr. Aguirre. Thank you, sir. Appreciate that.
    Senator Leahy. Thank you, Mr. Chairman.
    Senator Chambliss. Thank you, Senator Leahy.
    Just in closing, two things, Mr. Aguirre. First of all, I 
appreciate your response to both my question as well as Senator 
Kennedy's question regarding the issue of making sure that we 
do follow people here and follow them in the right way. But 
there is one other aspect of that. You talked about information 
sharing within the agency and the constant dialogue that is 
going on. And I appreciate that, and very honestly, that is one 
problem that we saw following 9/11. There was not the kind of 
information sharing, either vertically within our Federal 
agencies but, more significantly, horizontally across the 
agencies.
    As Secretary Ridge knows, I have harped on this for two and 
a half years now, and we are going to continue to do it. I know 
there is a plan in place out there to make sure that we are 
sharing this information with other critical Federal agencies. 
And there is no more important information to be shared than 
the information that you gather, because it is not just keeping 
the bad guys out that is important, but once they get here, 
anybody who has a suspicious background, once they get here we 
need to make sure that everybody is on the same wavelength with 
respect to sharing of that information on individuals in the 
right way. And I emphasize that. You know exactly what I mean 
by that.
    Secondly, my office, and I am sure Senator Leahy's office, 
gets overwhelmed at times with immigration cases. In my 
Congressional office, Social Security was our number one issue. 
Now, without question, in my senatorial office, immigration is 
the number one caseload that we have.
    In the past at the INS, trying to get a status report on 
individual cases of constituents has been very, very difficult 
and very time-consuming, and the response coming back from INS, 
frankly, was delayed in every instance. And I would hope you 
would give some concentration to that to make sure that your 
people at the lower level out there can be very responsive to 
Members of Congress who do make inquiries. Obviously, you have 
been there. You know how important it is to these individuals. 
And we just need to make sure that they are able to keep up 
with the status of their cases.
    Mr. Aguirre. Yes, sir. Clearly, our relationship with 
Congress will be one of the pillars of our administration. I 
will make sure that we are as responsive as we possibly can be 
to all Congressional inquiries.
    I don't have necessarily a rearview mirror into the old INS 
as to why or how things happened, but I do know that some of 
our systems are tired and need to be refurbished and need to be 
improved. And perhaps that accounts for some of what appears to 
be inattention on my colleagues' part, certainly not 
intentional. We will work very hard at being responsive, and 
hopefully as we improve customer service and reduce backlog, 
there will be less people coming to you, sir, looking for 
resolution of problems, that they all get resolved under the 
normal course of business.
    Senator Chambliss. I am sure that will be the case, and I 
promise you my staff looks forward to your improving that 
turnaround time for these folks.
    Senator Leahy, do you have anything else?
    Senator Leahy. No, I do not.
    Senator Chambliss. I want to introduce Chairman Hatch's 
statement for the record, and without objection, it will be 
included.
    We are going to leave the record open for 7 days. Any other 
members of the Committee wishing to submit any statement or 
information will have the opportunity to do so.
    Again, Mr. Aguirre, we appreciate your being here this 
morning, and we appreciate your great service to our country to 
this point. And Senator Leahy and all other members of this 
Committee, as well as all other Members of the Senate, look 
forward to continuing the dialogue and to working with you to 
make America a better country in which to live and give hope 
and opportunity to other folks the same way that we have all 
had, and particularly people like you.
    Mr. Aguirre. Thank you, Senator.
    Senator Chambliss. Thank you very much.
    [Whereupon, at 10:52 a.m., the Committee was adjourned.]
    [Questions and answers for the record follow.]
    [GRAPHIC] [TIFF OMITTED] 90465.011
    
    [GRAPHIC] [TIFF OMITTED] 90465.012
    
    [GRAPHIC] [TIFF OMITTED] 90465.013
    
    [GRAPHIC] [TIFF OMITTED] 90465.014
    
    [GRAPHIC] [TIFF OMITTED] 90465.015
    
    [GRAPHIC] [TIFF OMITTED] 90465.016
    
    [GRAPHIC] [TIFF OMITTED] 90465.017
    
    [GRAPHIC] [TIFF OMITTED] 90465.026
    
    [GRAPHIC] [TIFF OMITTED] 90465.027
    
    [GRAPHIC] [TIFF OMITTED] 90465.019
    
    [GRAPHIC] [TIFF OMITTED] 90465.020
    
    [GRAPHIC] [TIFF OMITTED] 90465.021
    
    [GRAPHIC] [TIFF OMITTED] 90465.022
    
    [GRAPHIC] [TIFF OMITTED] 90465.023
    
    [GRAPHIC] [TIFF OMITTED] 90465.024
    
    [GRAPHIC] [TIFF OMITTED] 90465.025
    
    [GRAPHIC] [TIFF OMITTED] 90465.028
    
    [GRAPHIC] [TIFF OMITTED] 90465.029
    
                                   - 

</pre></body></html>
